                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

    Case Number: A03110062                                                                                 Page 1 of 1



                  In the course of reviewing conference/workshopawards for compliance with grant conditions
          and federal regulations, we identified three issues with an awardee's' administration of a conference
          grant.2 Specifically, the awardee appeared to have used participant support funds to pay other direct
          costs without program officer approval; collected a registration fee (i.e., program income); and failed
          to meet its cost-sharing obligation.
                   We found that the awardee had used funds for meeting room rental             and refreshments
          for the conference. Light refreshments are generally permitted as participant support costs. Meeting
          room rental is also permitted under NSF policy; however, such costs are properly treated as other
          direct costs, not as participant support costs.3 For reasons discussed below, we do not need to pursue
          this misapplication of participant support funds.
                   With regard to program income, we found that the conference website advertised a
          registration fee for the conference. The awardee explained to us that the department hosting the
          conference did not collect the fee from attendees. Because we have no other evidence that a fee was
          collected, we accepted the awardee's explanation.
                   When asked to provide records of its cost-sharing commitment, the awardee stated that it had
          no records because it had not met its cost-sharing obligation. The awardee reimbursed NSF the cost-
          sharing obligation by crediting the grant account for the participant support charges               for
          five attendees. We have confirmed that the credit has been submitted through FastLane. The total
          amount credited is in excess of the awardee's obligation under the terms of the award letter;
          however, the excess amount covers the meeting room rental identified above. Thus, all issues raised
          by the review have been resolved.

                    Accordingly, this case is closed.




                                            L
          I
          2

          ' GPM 625.a (Rental of facilities) and GPM 625.g. (Meals and coffee breaks integral to conference)

'
I
NSF OIG Fortn 2 (1 1/02)
                                                                                                                         1I
